U.S. Department of Justice
Office of the Solicitor General

The Solicitor General

Washington, D.C. 20530

September 30, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Amarin Pharma, Inc., et al. v. International Trade Commission, et al.,
No. 19-152
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 30, 2019,
and placed on the Court’s docket on August 1, 2019. The respondents’ responses, including the
government’s response, are currently due, on one extension, on October 3, 2019.
We respectfully request, under Rule 30.4 of the Rules of this Court, a further extension to
and including November 4, 2019 (a Monday), within which all respondents may file their
responses. This extension is necessary because the attorneys with principal responsibility for final
preparation of the government’s response have been heavily engaged with the press of other
matters before the Court.
Counsel for petitioner does not object to this further extension of time for all respondents.
Sincerely,

Noel J. Francisco
Solicitor General

cc:

See Attached Service List

19-0152
AMARIN PHARMA, INC., ET AL.
ITC, ET AL.

ASHLEY C. PARRISH
KING & SPALDING LLP
1700 PENNSYLVANIA AVE., NW
WASHINGTON, DC 20006
202-737-0500
APARRISH@KSLW.COM

